December 6, 2010

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2010 Postal Service Financial Statements
         Audit – Washington, D.C. Headquarters
         (Report Number FT-AR-11-002)

This report presents the results of our audit of selected financial activities and
accounting records at Washington, D.C. Headquarters for the fiscal year (FY) ended
September 30, 2010 (Project Number 10BM003FT000). We conducted this audit in
support of the independent public accounting firm’s (IPA) overall audit opinions on the
Postal Service’s financial statements and internal controls over financial reporting.1 This
audit addressed financial risk. See Appendix A for additional information about this
audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX beginning in FY 2010. The Board of
Governors (Board) contracted with the IPA to express an opinion on the Postal
Service’s financial statements and, beginning in FY 2010, that responsibility expanded
to include an opinion on the Postal Service’s internal controls over financial reporting.

Conclusion

During our audit at the Washington, D.C. Headquarters, we noted that:

        Financial accounting policies and procedures provide for an adequate internal
         control structure and comply with accounting principles generally accepted in the
         U.S.

1
 The IPA maintains overall responsibility for testing and review of significant headquarters accounts and processes.
The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure adequate
coverage.
Fiscal Year 2010 Postal Service Financial Statements                                                     FT-AR-11-002
 Audit – Washington, D.C. Headquarters



        Accounting transactions at headquarters2 impacting the general ledger (GL)
         account balances are stated in accordance with accounting principles generally
         accepted in the U.S.

        GL account balances conform to the general classification of accounts on a basis
         consistent with that of the previous year.

        The Postal Service is in compliance with laws and regulations that have a direct
         and material effect on the financial statements taken as a whole.

We did not propose any adjustments; however, we identified a control deficiency
regarding manual journal voucher (JV) processing. This item was not material to the
financial statements and did not affect the overall adequacy of internal controls.

MANUAL JV PROCESSING

In each of the last 3 years, we reported that the controls over JV preparation, approval,
and review needed strengthening. As shown in the following table for FY 2010, of the
584 manual JVs reviewed, we found only one instance where a certain control was not
exercised.3 Specifically, we did not find any supporting documentation explaining why
the reserve was needed or how management determined the dollar amount. Overall,
though, our review of JVs for FY 2010 has shown a vast improvement to the process.
However, because this control over the JV process is considered key,4 any error could
impact the opinion of the IPA on internal controls over financial reporting in FY 2011.
We brought the issue identified for FY 2010 to the attention of Corporate Financial
Reporting on March 24, 2010, and it has not recurred.

Control Deficiencies by Quarter –                                                                        Instances In
                                                             Internal Control Issue
             FY 2010                                                                                       FY 2009
    1         234                          Total
                                                      Staff members approved JVs
    --       -- -- --                         0                                                                  2
                                                      prepared by their managers
    1        --         --         --         1       Some or all support missing                                0
                                                      No evidence of final approval put
    --       -- -- --                         0       into the Journal Entry Vehicle or                          2
                                                      posted to the GL
Source: JVs posted to the GL from October 2009 through September 2010.



2
  The OIG and the IPA coordinate testing and review of significant headquarters accounts and manual JVs.
3
  JV 962.5, “To create $100 million reserve for Forever Stamps for the quarter ending 12-31-09, per CFO.”
4
  A key control is one whose failure results in at least a reasonable likelihood that a material error in the financial
statement would not be prevented or detected on a timely basis.




                                                             2
Fiscal Year 2010 Postal Service Financial Statements                            FT-AR-11-002
 Audit – Washington, D.C. Headquarters


In FYs 2007, 2008, and 2009, we observed the following two issues during our JV
review that were not part of the documented JV procedures. These are not considered
key controls; however, we presented them to management to further enhance the JV
entry process. For FY 2010, we found no issues. Accordingly, we consider these issues
closed.

                                  Number of    Number of          Number of      Number of
        JV Entry
                                 Instances in Instances in       Instances in   Instances in
      Process Issue
                                   FY 2010      FY 2009            FY 2008        FY 2007
Inconsistent evidence of
approval for JVs that
were prepared and                       01                               2            14
approved by another
office
“Approver” and “Entered
                                        00                               3            2
By” was the same official
Source: JVs posted to the GL from October 2009 through September 2010.

Based on the results, we are not making any recommendations in this report and, as a
result, management chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Stephen J. Nickerson
    Corporate Audit and Response Management




                                                       3
Fiscal Year 2010 Postal Service Financial Statements                                                FT-AR-11-002
 Audit – Washington, D.C. Headquarters


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

U.S. Postal Service Headquarters Finance establishes accounting policies and provides
guidelines for recording and reporting Postal Service financial transactions. Internal
control and reporting systems have been created to ensure management and the public
receive meaningful financial information in accordance with generally accepted
accounting principles.

We will issue separate financial statement audit reports for the                           ,
                        Information Technology and Accounting Service Centers
(IT/ASCs). Further, in addition to the overall opinions on the Postal Service’s financial
statements and internal control over financial reporting, the Board’s IPA issued a
separate report on its consideration of the Postal Service’s internal controls and its test
of compliance with certain provisions of laws, regulations, contracts, and other matters.
The purpose of that report is to describe the scope of testing of internal control over
financial reporting and compliance and the results of that testing, not to provide an
opinion on internal control over financial reporting or on compliance.5 The OIG will also
issue a separate report for the audit of the FY 2010 information system controls at the
                                    IT/ASCs; and the           Information Technology
Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:6

        The financial accounting policies and procedures of the Postal Service provide
         for an adequate internal control structure and comply with accounting principles
         generally accepted in the U.S.

        Accounting transactions at headquarters impacting the GL account balances for
         assets, liabilities, equity, income, and expenses of the Postal Service are fairly
         stated in accordance with accounting principles generally accepted in the U.S.

        GL account balances conform to the general classification of accounts of the
         Postal Service on a basis consistent with that of the previous year.

        The Postal Service complies with laws and regulations that have a material and
         direct effect on the financial statements as a whole.


5
  In addition to work performed by the IPA, these reports encompass work performed by the OIG at Headquarters,
the three IT/ASCs, field sites, and the               Information Technology Service Center.
6
  The IPA maintains overall responsibility for testing and review of significant headquarters accounts and processes.
The OIG coordinated audit work with the IPA to ensure adequate coverage.




                                                          4
Fiscal Year 2010 Postal Service Financial Statements                                                FT-AR-11-002
 Audit – Washington, D.C. Headquarters


As part of our audit, we tested and reviewed internal controls and processes and
significant headquarters accounts (for example, cash, investments, and workers’
compensation), manual JVs,7 and laws and regulations. We verified the Board travel
and miscellaneous expenses totaling approximately $136,000 and external professional
fees totaling approximately $8,000; and tested and accepted officers’ travel and
representation expenses totaling approximately $628,000. We will issue separate
reports for the audits of the FY 2010 Board’s travel and miscellaneous expenses and
officers’ travel and representation expenses.

We conducted this audit from December 2009 through December 2010 in accordance
with the standards of the Public Company Accounting Oversight Board (United States)
(PCAOB) and the standards applicable to financial audits contained in Government
Auditing Standards issued by the comptroller general of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require us to consider the results of previous engagements and follow up
on known significant findings and recommendations that directly relate to the objectives
of the audit. An audit also includes obtaining a sufficient understanding of internal
control to plan the audit and to determine the nature, timing, and extent of audit
procedures. We believe the evidence obtained provides a reasonable basis for our
conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements are free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards may not detect a material misstatement. However, the
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention.

We relied on computer-generated data from several Postal Service financial systems,
including:

     eTravel.
     Chase Insight.
     Workers’ Compensation Master File.
     Accounting Data Mart.




7
  Statement on Auditing Standards (SAS) No. 99, Consideration of Fraud in a Financial Statement Audit, requires
auditors to perform certain tasks to address the risk of management overriding an internal control. To address such
situations, SAS No. 99 requires auditors to test the appropriateness of journal entries recorded in the GL and other
adjustments.




                                                          5
     Fiscal Year 2010 Postal Service Financial Statements                                FT-AR-11-002
      Audit – Washington, D.C. Headquarters



     To assess the reliability of these systems’ data, we performed specific internal control
     and transaction tests including tracing selected financial information to supporting
     source records. For example, we compared the Workers’ Compensation Master File
     data to a random sample of 60 case files. We determined the data was sufficiently
     reliable for the purposes of this report.

     PRIOR AUDIT COVERAGE

     We issued the following reports addressing selected financial activities and accounting
     records at Headquarters.

                                                       Final
                                 Report
     Report Title                                     Report                  Report Results
                                 Number
                                                       Date
Fiscal Year 2009 Postal        FT-AR-10-005         11/30/2009   We did not propose any adjustments;
Service Financial                                                however, we assessed the actions taken
Statements Audit –                                               by the Postal Service on manual JVs and
Washington, D.C.                                                 found significant improvement. We did not
Headquarters                                                     make any recommendations.
Fiscal Year 2008 Postal        FT-AR-09-007          1/16/2009   We identified a control deficiency regarding
Service Financial                                                manual JV processing. This item was not
Statements Audit –                                               significant to the financial statements and
Washington, D.C.                                                 did not affect the overall adequacy of
Headquarters                                                     internal controls. We recommended that
                                                                 management develop formal written
                                                                 procedures for manual JV processing and
                                                                 distribute them to all applicable personnel.
                                                                 Management agreed with the
                                                                 recommendation and took corrective
                                                                 action.
Fiscal Year 2007 Postal        FT-AR-08-006          2/8/2008    We identified a control deficiency regarding
Service Financial                                                manual JV processing. We recommended
Statements Audit –                                               management reiterate JV internal control
Washington, D.C.                                                 procedures to all applicable personnel.
Headquarters                                                     Management agreed with the
                                                                 recommendation and took corrective
                                                                 action.




                                                            6
